                        DEPARTMENT OF HEALTH AND HUMAN SERVICES


                   OFFICE OF INSPECTOR GENERAL
                                          WASHINGTON, DC 20201



                                             JUN 0 3 2013 


TO:                Marilyn Tavenner
                   Administrator 

                   Centers for Medicare & Medicaid Services 

                        /S/
FROM:              Stuart Wright
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Part D Plans Generally Include Drugs Commonly
           Used by Dual Eligibles: 2013, OEI-05-13-00090


This memorandum report fulfills the annual reporting mandate from the Patient
Protection and Affordable Care Act of2010 (ACA) for 2013. The ACA requires that the
Office of Inspector General (OIG) conduct a study ofthe extent to which formularies
used by stand-alone prescription drug plans (PDP) and Medicare Advantage prescription
drug plans (MA-PD) under Medicare Part D include drugs commonly used by full-benefit
dual-eligible individuals (i.e., individuals who are eligible for both Medicare and
Medicaid and who receive full Medicaid benefits and assistance with Medicare premiums
and cost-sharing). 1 Pursuant to the ACA, OIG must annually issue a report, with
recommendations as appropriate. This is the third report thafOIG has produced to meet
this mandate. For the relevant text of the ACA, see Appendix A.

SUMMARY

Pursuant to the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA), comprehensive prescription drug coverage under Medicare Part D is
available to all Medicare beneficiaries through PDPs and MA-PDs (hereinafter referred
to collectively as Part D plans)?

For beneficiaries who are eligible for Medicare and Medicaid (hereinafter referred to as
dual eligibles), Medicare covers Part D plan premiums, deductibles, and other
cost-sharing up to a determined premium benchmark that varies by region. If dual
eligibles enroll in Part D plans with premiums higher than the regional benchmark, they
are responsible for paying the premium amounts above that benchmark.


1
    ACA, P.L. lll-148 § 3313(a), 42 U.S.C. § 1395w-101 note. 

2
    MMA, P.L. 108-173 § 101, Social Security Act,§ 1860D-1(a), 42 U.S.C. § 1395w-10l(a). 

Page 2 – Marilyn Tavenner


To control costs and ensure the safe use of drugs, Part D plans are allowed to establish
formularies from which they may omit drugs from prescription coverage and control drug
utilization through utilization management tools. 3 These tools include prior
authorization, quantity limits, and step therapy. 4

The Centers for Medicare & Medicaid Services (CMS) annually reviews Part D plan
formularies to ensure that they include a range of drugs in a broad distribution of
therapeutic categories or classes. CMS also assesses the utilization management tools
present in each formulary.

For this memorandum report, we determined whether the 302 unique formularies used by
the 3,330 Part D plans operating in 2013 cover the 200 drugs most commonly used by
dual eligibles. We also determined the extent to which those commonly used drugs are
subject to utilization management tools.

Overall, we found that the rate of Part D plan formularies’ inclusion of the drugs
commonly used by dual eligibles is high, with some variation. On average, Part D plan
formularies include 96 percent of the commonly used drugs. In addition, 64 percent of
the commonly used drugs are included by all Part D plan formularies.

We also found that from 2012 to 2013, plan formularies increased the proportion of
unique drugs subject to utilization management tools. On average, formularies applied
utilization management tools to 28 percent of the unique drugs we reviewed in 2013,
compared to 24 percent of the unique drugs we reviewed in 2012.

The results of our analysis for 2013 are largely unchanged from OIG’s findings in both
2011 and 2012. 5, 6




3
  A formulary is a list of drugs covered by a Part D plan. Part D plans can exclude drugs from their
formularies and can control utilization for formulary-included drugs within certain parameters. Social
Security Act § 1860D-4(b) and (c), 42 U.S.C. § 1395w-104(b) and (c).
4
  Prior authorization—often required for very expensive drugs—requires that physicians obtain approval
from Part D plans to prescribe a specific drug. Quantity limits are intended to ensure that beneficiaries
receive the proper dose and recommended duration of drug therapy. Step therapy is the practice of
beginning drug therapy for a medical condition with the most cost-effective or safest drug therapy and
progressing if necessary to more costly or risky drug therapy.
5
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles, OEI-05-10-00390,
April 2011.
6
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012,
OEI-05-12-00060, June 2012.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 3 – Marilyn Tavenner


BACKGROUND

The Medicare Prescription Drug Benefit
Beginning in 2006, the MMA made comprehensive prescription drug coverage under
Medicare Part D available to all Medicare beneficiaries. 7 Medicare beneficiaries
generally have the option to enroll in a PDP and receive all other Medicare benefits on a
fee-for-service basis, or to enroll in an MA-PD and receive all of their Medicare benefits,
including prescription drug coverage, through managed care. As of March 2013,
approximately 35.3 million of the 48.7 million Medicare beneficiaries were enrolled in a
Part D plan. 8, 9

Part D plans are administered by private companies, known as plan sponsors, that
contract with CMS to offer prescription drug coverage in one or more PDP or MA-PD
regions. CMS has designated 34 PDP regions and 26 MA-PD regions. 10 In 2013, plan
sponsors offer 3,330 unique Part D plans, with many plan sponsors offering multiple
Part D plans. 11

Dual Eligibles Under Medicare Part D
Approximately 9.5 million Medicare beneficiaries are dual eligibles. 12 About 7 million
dual eligibles, referred to as “full-benefit dual eligibles,” receive full Medicaid benefits
and assistance with Medicare premiums and cost-sharing. 13, 14 Other dual eligibles
receive assistance with only their Medicare premiums or cost-sharing, depending on their
level of income and assets.

Dual eligibles are a particularly vulnerable population. Overall, most dual eligibles have
very low incomes: 86 percent have annual incomes below 150 percent of the Federal
poverty level, compared with 22 percent of all other Medicare beneficiaries. 15
Additionally, dual eligibles are in worse health than the average Medicare beneficiary:


7
  MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
8
  OIG analysis of CMS data: dual-eligible beneficiary enrollment by 2013 Part D plan. Received
March 4, 2013.
9
  Medicare Board of Trustees, The 2012 Annual Report of the Boards of Trustees of the Federal Hospital
Insurance and Federal Supplementary Medical Insurance Trust Funds. Accessed at
http://www.treasury.gov/resource-center/economic-policy/ss-medicare/Documents/TR_2012_Medicare.pdf
on January 17, 2013.
10
   CMS, Prescription Drug Benefit Manual (PDBM), Pub. 100-18, ch. 5, Appendixes 2 and 3. Accessed at
http://www.cms.gov/Medicare/Prescription-Drug-
Coverage/PrescriptionDrugCovContra/PartDManuals.html on October 19, 2012.
11
   OIG analysis of 2013 plan and premium information for Medicare plans offering Part D coverage.
Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
Coverage/PrescriptionDrugCovGenIn/PerformanceData.html November 11, 2012.
12
   OIG analysis of CMS data: dual-eligible beneficiary enrollment by 2013 Part D plan. Received
March 4, 2013.
13
   Ibid.
14
   Kaiser Family Foundation, Dual Eligibles: Medicaid’s Role for Low-Income Medicare Beneficiaries.
Access at http://www.kff.org/medicaid/upload/4091-08.pdf on November 20, 2012.
15
   Kaiser Family Foundation, Medicare’s Role for Dual Eligible Beneficiaries. Accessed at
http://www.kff.org/medicare/upload/8138-02.pdf on November 20, 2012.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 4 – Marilyn Tavenner


half are in fair or poor health, more than twice the rate of others in Medicare. 16 Because
of their self-reported health needs, dual eligibles may use more prescription drugs and
health care services in general than other Medicare beneficiaries.

Until December 31, 2005, dual eligibles received outpatient prescription drug benefits
through Medicaid. In January 2006, Medicare began covering outpatient prescription
drugs for dual eligibles through Part D plans. 17

Medicare covers Part D plan premiums, deductibles, and other cost-sharing for dual
eligibles up to a determined premium benchmark. The benchmark is a statutorily defined
amount that is based on the average premium amounts for Part D plans for each
region. 18, 19 If dual eligibles enroll in Part D plans with premiums higher than the
regional benchmark, they are responsible for paying the premium amounts above that
benchmark. 20

Dual eligibles’ assignment to Part D plans. When individuals become eligible for both
Medicare and Medicaid, CMS randomly assigns those individuals to PDPs unless they
have elected a specific Part D plan or have opted out of Part D prescription drug
coverage. 21 CMS assigns dual eligibles to PDPs that meet certain requirements, such as
having a premium at or below the regional benchmark amount and offering basic
prescription drug coverage (or equivalent). 22 Basic prescription drug coverage is defined
in terms of benefit structure (initial coverage, coverage gap, and catastrophic coverage)
and costs (initial deductible and coinsurance).

Some dual eligibles may be randomly assigned to PDPs that do not cover the specific
drugs they use. However, unlike the general Medicare population, dual eligibles can
switch plans at any time to find Part D plans that cover the prescription drugs they
require. 23 When dual eligibles change plans, their prescription drug coverage under their
new Part D plans becomes effective at the beginning of the following month.

CMS annually reassigns some dual eligibles to new PDPs if their current PDPs will have
premiums above the regional benchmark premium for the following year. 24 CMS

16
   Kaiser Family Foundation, Medicare’s Role for Dual Eligible Beneficiaries.
17
   MMA, P.L. 108-173 § 101.
18
   42 CFR § 423.780(b)(2)(i).
19
   Social Security Act, § 1860D-14(a)(3)(f), 42 U.S.C. § 1395w-114(a)(3)(f). Dual eligibles residing in
territories are not eligible to receive cost-sharing assistance from Medicare. As such, there are no
benchmarks for Part D plans offered in the territories.
20
   Patient Protection and Affordable Care Act (ACA), P.L. 111-148 § 3303, Social Security Act,
§ 1860D 14(a)(5), 42 U.S.C. § 1395w-114(a)(5). The ACA established a “de minimis” premium policy,
whereby a Part D plan may elect to charge dual eligibles the benchmark premium amount if the Part D
plan’s basic premium exceeds the regional benchmark by a de minimis amount. For 2013, CMS set the
de minimis amount at $2 above the regional benchmark.
21
   CMS, PDBM, ch. 3, § 40.1.4.
22
   Ibid.
23
   Ibid., § 30.3.2. In general, Medicare beneficiaries can switch Part D plans only once a year during a
defined enrollment period.
24
   Ibid., § 40.1.5.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 5 – Marilyn Tavenner


reassigns dual eligibles who were randomly assigned to their current PDPs to new PDPs
that will have premiums at or below the regional benchmark premium. 25 In addition,
CMS notifies dual eligibles who elected their current Part D plans that their plans will
have premiums above the regional benchmark premium. For 2013, CMS reported
reassigning approximately 835,000 Medicare beneficiaries, including but not exclusively
dual eligibles, because of premium increases.

Part D Prescription Drug Coverage
Under Part D, plans can establish formularies from which they may exclude drugs and
control drug utilization within certain parameters. These parameters are intended to
balance Medicare beneficiaries’ needs for adequate prescription drug coverage with
Part D plans’ needs to contain costs. Generally, a formulary must include at least
two drugs in each therapeutic category or class. 26, 27 In addition, Part D plans must
include Part D-covered drugs in certain categories and classes. 28

Part D plans may also control drug utilization by applying utilization management tools.
These tools include requiring prior authorization to obtain drugs that are on plan
formularies, establishing quantity limits, and requiring step therapy. Utilization
management tools can help Part D plans and the Part D program limit the cost of
prescription drug coverage by placing restrictions on the use of certain drugs.

In addition to these drug coverage decisions made regarding individual formularies,
certain categories of drugs are excluded from Medicare Part D prescription drug coverage
as mandated by the MMA. 29 For example, prescription vitamins, prescription mineral
products, and nonprescription drugs are excluded from Part D prescription drug
coverage. 30

Until 2013, barbiturates and benzodiazepines were excluded from Part D prescription
drug coverage. However, the ACA reversed this exclusion, removing these two drug
types from the list of drug classes ineligible for Part D prescription drug coverage. 31, 32

CMS Efforts To Ensure Prescription Drug Coverage
Formulary review. CMS annually reviews Part D plan formularies to ensure that they
include a range of drugs in a broad distribution of therapeutic categories or classes and


25
   CMS, PDBM, ch. 3, § 40.1.5.
26
   CMS, PDBM, ch. 6, § 30.2.1.
27
   Therapeutic categories or classes classify drugs according to their most common intended uses. For
example, cardiovascular agents compose a therapeutic class intended to affect the rate or intensity of
cardiac contraction, blood vessel diameter, or blood volume.
28
   ACA, P.L. 111-148 § 3307, Social Security Act, § 1860D 4(b)(3)(G), 42 U.S.C. § 1395w 104(b)(3)(G).
29
   MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-2(e), 42 U.S.C. § 1395w-102(e).
30
   Social Security Act § 1860D-2(e)(2), 1927(d)(2), 42 U.S.C. § 1395w-102(e)(2), 1396r-8(d)(2).
31
   ACA, P.L. 111-148 § 2502, Social Security Act, § 1397r-8(d).
32
   Barbiturates are covered under Part D only when used to treat epilepsy, cancer, or a chronic mental
disorder. CMS, Transition to Part D Coverage of Benzodiazepines and Barbiturates Beginning in 2013.
Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
Coverage/PrescriptionDrugCovContra/Downloads/BenzoandBarbituratesin2013.pdf on January 17, 2013.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 6 – Marilyn Tavenner


include all drugs in specified therapeutic categories or classes. 33 During this review,
CMS analyzes formularies’ coverage of the drug classes most commonly prescribed for
the Medicare population. CMS intends for Part D plans to cover the most widely used
medications, or therapeutically alternative medications (e.g., drugs from the same
therapeutic category or class), for the most common conditions. CMS uses Part D
prescription drug data to identify the most commonly prescribed classes of drugs. 34

CMS also assesses each formulary’s utilization management tools to ensure consistency
with current industry standards and with standards that are widely used with drugs for the
elderly and people with disabilities. 35, 36, 37

Exceptions and appeals process. CMS has implemented an exceptions and appeals
process whereby beneficiaries can request coverage of nonformulary drugs.
Beneficiaries apply to their Part D plans for exceptions to obtain coverage of
nonformulary drugs. Generally, Part D plans must make determinations within 72 hours
or, for expedited requests, within 24 hours. 38 If their plans make negative
determinations, beneficiaries have the right to appeal. 39 If their plans deny their appeals,
beneficiaries would need to get prescriptions from their physicians for therapeutically
alternative drugs that are covered by their plans.

Transitioning new enrollees to Part D. CMS requires that Part D plans establish a
transition process for new enrollees (including dual eligibles) who are transitioning to
their respective Part D plans either from different Part D plans or from other prescription
drug coverage. During Medicare beneficiaries’ first 90 days under a new Part D plan, the
new plan must provide one temporary refill of a prescription when beneficiaries request
either a drug that is not in the plan’s formulary or a drug that requires prior authorization
or step therapy under the formulary’s utilization management tools. 40 The temporary fill
accommodates beneficiaries’ immediate drug needs the first time they attempt to fill a
prescription. The transition period also allows beneficiaries time to work with their
prescribing physicians to obtain prescriptions for therapeutically alternative drugs or to
request formulary exceptions from Part D plans.

Related OIG Work
In 2006, OIG published a report assessing the extent to which PDP formularies included
drugs commonly used by dual eligibles under Medicaid. The study found that PDP
formularies included between 76 and 100 percent of the 178 drugs commonly used by


33
   CMS, PDBM, ch. 6, § 30.2.1 and 30.2.5.
34
   Ibid., § 30.2.7.
35
   Ibid., § 30.2.2.
36
   Ibid., § 30.2.7.
37
   CMS looks to appropriate guidelines from expert organizations such as the National Committee for
Quality Assurance, the Academy of Managed Care Pharmacy, and the National Association of Insurance
Commissioners.
38
   CMS, PDBM, ch. 18, §§ 130.1 and 130.2.
39
   Ibid., § 60.1.
40
   Ibid., ch. 6, § 30.4.4.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 7 – Marilyn Tavenner


dual eligibles under Medicaid prior to the implementation of Part D. Approximately half
of the 178 commonly used drugs were covered by all formularies. 41

In 2011, OIG issued the first annual mandated memorandum report examining dual
eligibles’ access to drugs under Medicare Part D. 42 In 2012, OIG issued the second
annual mandated memorandum report examining dual eligibles’ access to drugs under
Medicare Part D. 43 In the current memorandum report, we compare the results from
2012 and 2013.

METHODOLOGY

Scope
As mandated in the ACA, this study assessed the extent to which drugs commonly used
by dual eligibles are included by Part D plan formularies. To make this assessment, we
evaluated formularies for Part D plans operating in 2013. As part of our assessment, we
included dual eligibles’ enrollment data from March 2013, the most recent enrollment
data available from CMS at the time of our study. We also compared the results of our
2013 study with those of our 2012 study. 44

The ACA did not define which drugs commonly used by dual eligibles we should review.
We defined drugs commonly used by dual eligibles as the 200 drugs with the highest
utilization by dual eligibles as reported in the latest Medicare Current Beneficiary Survey
(MCBS). We used the MCBS because it contains drugs that dual eligibles received
through multiple sources (e.g., Part D, Medicaid, and the Department of Veterans
Affairs) and, as such, it provides a comprehensive picture of drug utilization. Of the
200 highest utilization drugs identified using the MCBS, 195 are eligible for coverage
under Part D. In this report, we refer to these 195 Part D-eligible high-utilization drugs
as “commonly used drugs.”

The 200 drugs with the highest utilization by dual eligibles referenced in this
2013 memorandum report are similar but not identical to the list of drugs referenced in
the 2012 memorandum report. Specifically, 185 of the 200 drugs (93 percent) listed in
the 2012 memorandum report are also listed in this 2013 memorandum report.

For each study, OIG went beyond the ACA’s mandate by reviewing drug coverage for all
dual eligibles under Medicare Part D, rather than only for full-benefit dual eligibles.
With the data available for this study, we could not confidently identify and segregate
full-benefit dual eligibles—and thus the drugs they used—from the total population of
dual eligibles.



41
   OIG, Dual Eligibles’ Transition: Part D Formularies’ Inclusion of Commonly Used Drugs,
OEI-05-06-00090, January 2006.
42
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles.
43
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012.
44
   Ibid.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 8 – Marilyn Tavenner


We also went beyond the ACA’s mandate in both the 2012 and 2013 reports by
examining the utilization management tools that Part D plan formularies apply to the
drugs commonly used by dual eligibles. These tools may affect dual eligibles’ access
even in cases where formularies include the commonly used drugs. Analyzing the extent
to which Part D plan formularies apply these tools to drugs commonly used by dual
eligibles allows us to provide a comprehensive picture of Part D plan formularies’
coverage of, and dual eligibles’ access to, those drugs.

Data Sources
MCBS. We used 2009 MCBS Cost and Use data to create a list of the 200 drugs with the
highest utilization by dual eligibles. The MCBS Cost and Use data contain information
on hospitals, physicians, and prescription drug costs and utilization. The 2009 MCBS
Cost and Use data are the most recent data available.

The MCBS is a CMS-conducted continuous, multipurpose survey of a representative
national sample of the Medicare population, including dual eligibles. Sampled Medicare
beneficiaries are interviewed three times per year and asked what drugs they are taking
and whether they have started taking any new drugs since the previous interview. The
MCBS also includes Part D prescription drug events for surveyed Medicare beneficiaries.
In 2009, the MCBS surveyed 10,859 Medicare beneficiaries, of which 2,092 were dual
eligibles who had used prescription drugs during the year (out of 2,299 dual-eligible
survey respondents).

First Databank National Drug Data File. We used the December 2012 First DataBank
National Drug Data File to identify the drug product information for the 200 drugs with
the highest utilization by dual eligibles. The National Drug Data File is a database
containing information—such as drug name, therapeutic category or class, and the unique
combination of active ingredients—for each drug defined by the Food and Drug
Administration’s National Drug Code (NDC). 45

Part D plan data. In November 2012, we collected from CMS the plan and formulary
data for Part D plans operating in 2013. The 2013 Part D plan data provide information
such as the State in which a Part D plan is offered, whether the Part D plan is a PDP or an
MA-PD, and whether the Part D plan premium is below the regional benchmark. The
2013 Part D formulary data include Part D plans’ formularies and utilization management
tools. In 2013, there are 302 unique formularies offered by 3,330 Part D plans.

We also collected 2013 Part D plan enrollment data. These data provide the number of
dual eligibles enrolled in each Part D plan as of March 2013.

Determining the Most Commonly Used Drugs
To determine the drugs most commonly used by dual eligibles, we took the following
steps:


45
  An NDC is a three-part universal identifier that specifies the drug manufacturer’s name, the drug form
and strength, and the package size.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 9 – Marilyn Tavenner


     1. Created a list of all drugs reported by dual eligibles surveyed in the MCBS. We
        excluded respondents from territories because they are not eligible to receive
        cost-sharing assistance under Part D. There were 154,267 drug events listed for
        2,090 dual eligibles in the MCBS that did not reside in territories. 46

     2. Collapsed this list to a list of drugs based on their active ingredients, using the
        Ingredient List Identifier located in First DataBank’s National Drug Data File.
        For example, a multiple-source drug such as fluoxetine hydrochloride (the active
        ingredient for the multiple-source brand-name drug Prozac) has only one entry on
        our list, covering all strengths of both the brand-name drug Prozac and the generic
        versions of fluoxetine hydrochloride available. From this point forward, unless
        otherwise stated, we will use the term “drug” to refer to any drug in the same
        Ingredient List Identifier category, and the term “unique drug” to refer to an NDC
        corresponding to a drug, as a given drug can have multiple NDCs. This process
        left 153,789 drug events associated with 864 drugs. There were 478 drug events
        in the MCBS that could not be matched with an Ingredient List Identifier in First
        DataBank’s National Drug Data File.

     3. Ranked all drugs by frequency of utilization, weighting the drug-event
        information from MCBS by sample weight.

     4. Selected the 200 drugs with the highest utilization by dual eligibles. For a full list
        of the top 200 drugs, see Appendix B.

     5. Removed all drugs not covered under Part D. Of the 200 drugs with the highest
        utilization, 195 are eligible under Part D, 2 fell into drug categories excluded
        under Part D, 1 is no longer prescribed in the form taken by beneficiaries
        surveyed in the 2009 MCBS, and 1 is no longer available in the United States.
        One additional drug is eligible for Part D prescription drug coverage. However,
        we did not include it in our analysis because we could not confidently project the
        use of this drug to the entire dual-eligible beneficiary population. For details on
        the four drugs excluded under Part D, see Appendix C.

Formulary Analysis
We analyzed the 302 unique Part D plan formularies to determine their rates of inclusion
of the 195 drugs commonly used by dual eligibles. We counted a drug as included in a
Part D plan’s formulary if the formulary included the active ingredient. When a drug
included multiple ingredients that could be dispensed separately and combined by the
patient to the same effect as the combined drug, we treated the drug as included if the
ingredients were included in the formulary either separately or in combination.

Low rates of inclusion by formularies. We determined which of the 195 commonly used
drugs had low rates of inclusion by formularies by counting how many of the

46
  For the purposes of this report, a drug event is a MCBS survey response indicating that the responding
beneficiary took a specific drug at least once in 2009. For example, one MCBS survey respondent reported
taking atenolol 8 times in 2009. We counted this beneficiary/drug combination as 8 drug events.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 10 – Marilyn Tavenner


302 formularies covered each drug. We considered a drug to have a low rate of inclusion
if it was included by 75 percent or less of formularies. For such drugs, we counted the
number of drugs (if any) that each formulary covered in the same therapeutic category or
class.

We conducted this analysis to ensure that dual eligibles have access to therapeutically
similar drugs. We also conducted additional research to identify potential reasons why
some of the 195 commonly used drugs were included by less than 75 percent of
formularies.

Utilization management tools. We determined the extent to which Part D plans apply
utilization management tools to the 195 drugs that we reviewed. The tools that we
reviewed are prior authorization, quantity limits, and step therapy.

To determine the extent to which the 195 commonly used drugs are subject to utilization
management tools, we conducted an analysis of the NDCs that correspond to the
commonly used drugs. Part D plan formularies do not apply utilization management
tools at the active ingredient level. Rather, Part D plan formularies apply utilization
management tools at a more specific level that identifies whether a drug is brand-name or
generic and its dosage form, strength, and route of administration, irrespective of package
size. To conduct this analysis, we determined the NDCs (unique drugs) associated with
each of the 195 commonly used drugs that are on each Part D formulary. We then
calculated the percentage of unique drugs to which each Part D plan formulary applies
utilization management tools.

Enrollment Analysis
We weighted the formulary analysis by dual-eligible enrollment and weighted the
utilization management tool analysis by both dual-eligible enrollment and Medicare
enrollment. To do this, we applied March 2013 enrollment data to 2013 Part D plans.

Data Limitations
We did not assess individual dual eligibles’ prescription drug use or whether individual
dual eligibles are enrolled in Part D plans that include the specific drugs that each
individual uses. Because we relied on a sample of dual eligibles responding to the MCBS
to develop our list of commonly used drugs, a particular dual eligible might not use any
of the drugs on our list. However, the drugs most commonly used by dual-eligible
MCBS survey participants in 2009 account for 87 percent of all prescriptions dispensed
to the dual-eligible respondents in the 2009 MCBS.

Because the lists of commonly used drugs in the 2012 and 2013 memorandum reports are
not identical, changes in rates of inclusion by formularies and in application of utilization
management tools between 2012 and 2013 may reflect changes as to which specific drugs
were included in the lists, rather than changes regarding any specific drug. However, the
two lists largely overlap; 93 percent of the drugs reviewed in the 2012 memorandum
report are the same as those reviewed in this 2013 memorandum report.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 11 – Marilyn Tavenner


Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Part D Plan Formularies Include Between 85 and 100 Percent of the Drugs
Commonly Used by Dual Eligibles
On average, Part D plan formularies include 96 percent of the drugs commonly used by
dual eligibles. Of the 302 unique formularies used by Part D plans in 2013,
19 formularies include 100 percent of the commonly used drugs. At the other end of the
inclusion range, one formulary includes 85 percent of the commonly used drugs. CMS
generally requires Part D plan formularies to include at least two drugs, rather than all
drugs, in each therapeutic category or class. Therefore, Part D plan formularies may still
meet CMS’s formulary requirements even if they do not include all of the drugs we
identified as commonly used by dual eligibles.

Part D plan formularies’ inclusion of the drugs commonly used by dual eligibles in 2013
is nearly identical to that of 2012. The average rate of inclusion—96 percent—was
unchanged between 2012 and 2013. The ranges of inclusion in 2012 and 2013 are almost
the same—in 2012, the rates of inclusion ranged from 83 to 100 percent of the drugs
commonly used by dual eligibles, and in 2013, they ranged from 85 to 100 percent.

Nationally, PDP and MA-PD formularies include a similar average of the drugs
commonly used by dual eligibles: 94 percent and 96 percent respectively. PDP
formularies’ rates of inclusion of the commonly used drugs ranged from 87 to
100 percent, and MA-PD formularies’ rates ranged from 85 to 100 percent. Twenty-one
formularies—7 percent of the 302 unique formularies used by Part D plans in 2013—are
offered by both PDPs and MA-PDs.

Regionally, all dual eligibles have the choice of a Part D plan that includes at least
99 percent of the commonly used drugs. Every PDP region has a plan that includes at
least 99 percent of the commonly used drugs, and every MA-PD region has a plan that
covers at least 99 percent of these drugs. Appendix D provides a breakdown of
formulary inclusion by PDP and MA-PD region.

On average, formularies for Part D plans with premiums below the regional benchmark
include 95 percent of the drugs commonly used by dual eligibles. The percentage of
drugs included by Part D plans with premiums below the regional benchmark is
important because dual eligibles are automatically enrolled in, or annually reassigned to,
these plans. For drugs commonly used by dual eligibles, formularies for Part D plans
with premiums below the regional benchmark have a rate of inclusion that ranges from
87 percent to 100 percent. Approximately 73 percent of dual eligibles are enrolled in
Part D plans with premiums below the regional benchmark.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 12 – Marilyn Tavenner


Ninety-nine percent of dual eligibles are enrolled in Part D plans that include at least
90 percent of the drugs commonly used by dual eligibles. Of the approximately
9.5 million dual eligibles enrolled in Part D plans, 99 percent are enrolled in Part D plans
that use formularies that include at least 90 percent of the commonly used drugs. Only
1 percent of dual eligibles are enrolled in Part D plans that use formularies that include
less than 90 percent of these drugs. Table 1 provides a breakdown of dual eligibles’
enrollment in Part D plans by the plans’ formulary inclusion rates.

          Table 1: Enrollment of Dual Eligibles in Part D Plans and Formulary
          Inclusion of Commonly Used Drugs
           Part D Plans With Formularies That                    Number of Dual             Percentage of Dual
           Include:                                           Eligibles Enrolled*            Eligibles Enrolled
           100% of commonly used drugs                                      175,000                             2%
           95% to 99% of commonly used drugs                              3,329,000                            35%
           90% to 94% of commonly used drugs                              5,821,000                            62%
           85% to 89% of commonly used drugs                                126,000                             1%
              Total                                                       9,451,000                           100%
          Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles and dual eligibles’
          enrollment, 2013.
          *Rounded to the nearest 1,000.

The percentage of dual eligibles enrolled in Part D plans that include at least 90 percent
of the drugs commonly used by dual eligibles stayed consistent between 2012 and 2013
at 99 percent.

Sixty-Four Percent of the Drugs Commonly Used by Dual Eligibles Are Included in
All Part D Plan Formularies
Because most of the commonly used drugs are included in a large percentage of
formularies, dual eligibles are guaranteed that, regardless of the Part D plan in which they
are enrolled, the plan’s formulary will include many of these drugs. By drug, formulary
inclusion ranges from 51 percent to 100 percent. In other words, one drug commonly
used by dual eligibles is included in as few as 51 percent of Part D plan formularies, and
125 drugs are included in all plan formularies. The average rate of inclusion by
formularies is 96 percent. Table 2 provides a summary of rates of inclusion by
formularies. Appendix D provides rates of inclusion by formularies for each of the
commonly used drugs.
               Table 2: Formularies’ Rates of Inclusion of Commonly Used Drugs
                                                                    Percentage of the 195 Commonly
                  Percentage of the 302 Formularies                          Used Drugs Included in
                                                                                        Formularies
                                                                                                      64%
                  100%
                                                                                               (125 drugs)
                                                                                                      24%
                  85% to 99%
                                                                                                (47 drugs)
                                                                                                        4%
                  75% to 84%
                                                                                                  (7 drugs)
                                                                                                       8%
                  51% to 74%
                                                                                                (16 drugs)
                                                                                                    100%
                      Total
                                                                                              (195 drugs)
                 Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2013.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 13 – Marilyn Tavenner


The rates of formulary inclusion of the drugs commonly used by dual eligibles in 2013
are similar to those in 2012. The percentage of commonly used drugs included in all
formularies increased slightly between 2012 and 2013, from 61 percent to 64 percent.

Part D plan formularies include certain drugs less frequently than others. Of the
commonly used drugs, 8 percent (16 drugs) are included by less than 75 percent of Part D
plan formularies. Table 3 provides the percentage of formularies covering each of these
16 drugs.

The drugs that make up this group include both brand and generic drugs, and are used to
treat a variety of primary indications. Seven of the sixteen drugs are brand-name drugs,
which are typically more costly than generic drugs. In terms of primary indications, 4 of
the 16 drugs are used to treat high blood pressure, 3 of the 16 drugs are muscle relaxants,
and the remaining treat a variety of conditions including high cholesterol, asthma, and
insomnia.
Table 3: Drugs Included by Less Than 75 Percent of Part D Plan Formularies
                                                                                                                         Rate of
     Generic Name of Drug                                                             Primary Indication(s)         Inclusion by
                                                                                                                    Formularies
     Valsartan/hydrochlorothiazide                                      Hypertension (high blood pressure)                  74%
     Olmesartan/hydrochlorothiazide*                                    Hypertension (high blood pressure)                 73%
     Olmesartan medoxomil*                                              Hypertension (high blood pressure)                 73%
     Valsartan                                                          Hypertension (high blood pressure)                 73%
     Cyclobenzaprine HCL                                                                       Muscle relaxant             70%
     Methocarbamol                                                                             Muscle relaxant             70%
     Diphenoxylate HCL/atropine                                                                    Antidiarrheal           66%
     Ezetimibe/simvastatin*                                            Hyperlipidemia (high cholesterol)                   62%
                                                                      Hyperlipidemia (high cholesterol),
     Fenofibrate nanocrystallized                                                                                          62%
                                                                hypertriglyceridemia (high triglycerides)
     Temazepam                                                                                  Insomnia                   62%
                                               Dyspepsia, peptic ulcer disease, gastroesophageal reflux
     Esomeprazole magnesium*                                                                                               60%
                                                                    disease, Zollinger-Ellison syndrome
     Alprazolam                                                                                   Anxiety                  59%
     Eszopiclone*                                                                                      Insomnia            59%
     Rosiglitazone maleate*                                                                    Insulin sensitizer          56%
     Carisoprodol*                                                                             Muscle relaxant             52%
     Levalbuterol tartrate*                               Asthma, chronic obstructive pulmonary disease                    51%
 Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2013.
 * These drugs also had low formulary inclusion rates in 2012.


Although Part D formularies frequently omit these 16 drugs, they all cover other drugs in
the same therapeutic classes. For 15 of these drugs, 100 percent of formularies cover at
least 1 drug in the same therapeutic class that is also on the list of 195 drugs commonly
used by dual eligibles. Finally, 100 percent of formularies cover drugs in the same
therapeutic class as the remaining low-inclusion drug, diphenoxylate HCl/atropine. 47



47
  The drugs in the same therapeutic class as diphenoxylate HCl/atropine are not always on the list of
195 commonly used drugs.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 14 – Marilyn Tavenner


The number of drugs included by less than 75 percent of formularies increased from 11 in
2012 to 16 in 2013. There are eight drugs with low inclusion rates in 2013 that were also
on the list of commonly used drugs with low inclusion rates in our 2012 report; these
drugs are noted in Table 3. An additional 5 of the 16 low-inclusion drugs in 2013 were
on the list of commonly used drugs in our 2012 report, and the final 3 of the
16 low-inclusion drugs in our 2013 report were either not covered by Part D in 2012 or
were not on the list of commonly used drugs in the 2012 report.

There are many potential reasons why a commonly used drug might be included by less
than 75 percent of formularies:

     •   Three of these drugs—cyclobenzaprine HCl, diphenoxylate HCl/atropine, and
         methocarbamol—are on CMS’s list of high-risk Part D medications, which may
         explain the low inclusion rates for these drugs. 48 Part D formularies have
         increasingly excluded these drugs since they were placed on the high-risk
         medication list in 2011.
     •   Another two drugs—valsartan and valsartan/hydrochlorothiazide—received
         first-time generic drug approval from the Food and Drug Administration on
         September 21, 2012. Thus, Part D formularies may now cover different generic
         forms of these drugs.
     •   The decrease in formulary coverage of fenofibrate nanocrystallized may be driven
         by the fact that the nanocrystallized form of fenofibrate is more expensive than
         other forms of fenofibrate.
     •   Two drugs—temazepam and alprazolam—are benzodiazepines, which were
         excluded from Part D coverage until 2013. These two drugs were also on the list
         of commonly used drugs in our 2012 report. The low inclusion rates for these two
         drugs may be explained by CMS’s recent change in Part D coverage guidelines.

Low rates of inclusion by formularies may require dual eligibles to obtain a nonformulary
drug. There are several means by which dual eligibles can obtain a nonformulary drug,
all of which require them to take additional action. Obtaining therapeutically alternative
drugs requires that dual eligibles get new prescriptions from their doctors. Dual eligibles
may also submit statements of medical necessity from their physicians as part of appeals
to obtain coverage of nonformulary drugs. 49 Finally, dual eligibles may switch to Part D


48
   This list—“Use of High-Risk Medications in the Elderly: High-Risk Medications” —is part of the
Healthcare Effectiveness and Information Set national drug code measures published by the National
Committee for Quality Assurance. A high-risk medication is a drug with a high risk of serious side effects
in the elderly. CMS uses this medication list to calculate the percentage of Medicare beneficiaries who
received at least one high-risk medication in the past year. CMS publishes this percentage and other Part D
patient safety measures so that Medicare beneficiaries can make informed decision in choosing a Part D
plan for their prescription drug coverage. National Committee on Quality Assurance, HEDIS 2012 NDC
List. Accessed at
http://www.ncqa.org/HEDISQualityMeasurement/HEDISMeasures/HEDIS2012/HEDIS2012FinalNDCList
s.aspx on January 14, 2013 and at http://www.cms.gov/Medicare/Prescription-Drug-
Coverage/PrescriptionDrugCovGenIn/Downloads/Technical-Notes-2013-.pdf on March 25, 2013.
49
   CMS, PDBM, ch. 18, § 30.2.2.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 15 – Marilyn Tavenner


plans that include their drugs, with the new coverage becoming effective the following
month. 50

Plan Formularies Increased the Percentage of Commonly Used Drugs Subject to
Utilization Management Tools Between 2012 and 2013
For the unique drugs that compose the list of commonly used drugs, Part D plan
formularies increased the percentage subject to utilization management tools, from an
average of 24 percent in 2012 to an average of 28 percent in 2013. Among the
formularies, those for plans with premiums below the regional benchmark had a slightly
larger increase in this percentage between 2012 and 2013, going from an average of
22 percent in 2012 to an average of 27 percent in 2013. See Table 4 for a breakdown of
the percentage of unique drugs to which Part D plan formularies apply utilization
management tools in 2012 and 2013.

       Table 4: Part D Plan Formularies’ Application of Utilization Management Tools to
       Commonly Used Drugs, 2012 to 2013
        Percentage of Unique Drugs                 Number of         Percentage of         Number of
                                                                                                             Percentage of
        to Which Utilization                      2012 Part D          2012 Part D        2013 Part D
                                                                                                           2013 Part D Plan
        Management Tools Are                            Plan                 Plan               Plan
                                                                                                               Formularies
        Applied                                   Formularies         Formularies         Formularies
        40% to 55%                                           31                  11%                 41               13%
        30% to 39%                                           59                  22%                 116              38%
        20% to 29%                                           92                  34%                 74               25%
        10% to 19%                                           54                  20%                 34               11%
        Less than 10%                                        36                  13%                 37               12%
            Totals                                          272                 100%                 302            100%*
       Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2013.
       * Percentages do not add to 100 percent because of rounding.


This increase in Part D plan formularies’ application of utilization management tools
results partially from an increase in the rate at which formularies apply quantity limits to
the unique drugs that make up commonly used drugs. In 2013, formularies applied such
quantity limits to an average of 24 percent of unique drugs, up from 21 percent in 2012.
There is also a slight increase in the rate at which formularies apply prior authorization to
the unique drugs that make up commonly used drugs. In 2013, formularies applied prior
authorization to an average of 5 percent of unique drugs, up from 3 percent in 2012.
Formularies applied step therapy at virtually the same rate in 2013 as in 2012, that is, for
an average of 3 percent of unique drugs.

Although there has been an overall increase in Part D plan formularies’ use of utilization
management tools, wide variation remains in the rate at which plan formularies apply
these tools. In 2013, some formularies applied utilization management tools to none of
the unique drugs, whereas at the other end of the range, some applied the tools to
55 percent of the unique drugs. More specifically, formularies apply quantity limits to
between 0 and 44 percent of unique drugs, prior authorization to between 0 and
29 percent, and step therapy to between 0 and 20 percent.


50
     CMS, PDBM, ch. 3, § 30.3.2.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 16 – Marilyn Tavenner


Looking at enrollment across plans provides a slightly different picture than looking only
at plans themselves. On average, plan formularies in 2013 apply utilization management
tools to 28 percent of unique drugs. However, dual eligibles tend to be enrolled in plans
with formularies that apply these tools at a slightly higher rate; in 2013, the median plan
weighted by dual-eligible enrollment applies such tools to 35 percent of unique drugs.
This is an increase over 2012, when the median plan weighted by dual-eligible
enrollment applied utilization management tools to 26 percent of unique drugs.
Similarly, the median plan weighted by overall Medicare enrollment applies these tools
to 32 percent of unique drugs in 2013, up from 26 percent in 2012.

Both dual eligibles and Medicare beneficiaries overall tend to be enrolled in plans with
formularies that apply utilization management tools to between 30 and 55 percent of
unique drugs. In 2013, 62 percent of dual eligibles and 54 percent of Medicare
beneficiaries overall were enrolled in plans with formularies in this range.
Table 5 provides a breakdown of dual eligibles and Medicare beneficiaries’ enrollment in
Part D plans by the plans’ formularies’ application of utilization management tools.

     Table 5: Beneficiary Enrollment in Part D Plans by Application of Utilization
     Management Tools to Commonly Used Drugs, 2012 to 2013
                                                                     Percentage of                               Percentage of
     Percentage of Unique Drugs to             Percentage of                               Percentage of
                                                                          Medicare                                    Medicare
     Which Plan Formularies Apply              Dual Eligibles                              Dual Eligibles
                                                                      Beneficiaries                               Beneficiaries
     Utilization Management Tools              Enrolled, 2012                              Enrolled, 2013
                                                                     Enrolled, 2012                              Enrolled, 2013
     40% to 55%                                            22%                 21%                     18%                 20%
     30% to 39%                                            22%                    23%                  44%                   34%
     20% to 29%                                            44%                    42%                  16%                   12%
     10% to 19%                                              2%                    4%                    6%                   5%
     Less than 10%                                           9%                   10%                  17%                   29%
         Totals                                          100%*                  100%                 100%*                  100%
     Source: OIG analysis of dual-eligible enrollment and Medicaid beneficiary enrollment by rates of utilization management tool
     application to drugs commonly used by dual eligibles, 2013.
     *Percentages do not add to 100 percent because of rounding.


Further, although utilization management tools control access to drugs, they are
important tools for managing costs in Medicare and ensuring appropriate utilization of
drugs. For example, oxycodone HCl/acetaminophen drugs saw more than a 30-percent
increase in formulary application of utilization management controls. Such limits may be
intended to ensure appropriate utilization, as CMS’s Part D 2013 guidance to Part D
sponsors set forth expectations for opioid overutilization reviews to help ensure that
opioids are prescribed and used correctly. 51

CONCLUSION

When establishing formularies and applying utilization management tools, Part D plans
need to balance Medicare beneficiaries’ needs for adequate prescription drug coverage

51
  CMS, Supplemental Guidance Related to Improving Drug Utilization Review Controls in Part D.
September 6, 2012. Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
Coverage/PrescriptionDrugCovContra/Downloads/HPMSSupplementalGuidanceRelated-
toImprovingDURcontrols.pdf on January 16, 2013.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 17 – Marilyn Tavenner


with the need to contain costs for themselves and for the Part D program. By law, Part D
plan formularies do not have to include every available drug. Rather, to meet CMS’s
formulary requirements, they must include at least two drugs in each therapeutic category
or class. For example, for each of the 16 drugs that this memorandum report identifies as
being included by less than 75 percent of Part D plan formularies, all Part D plan
formularies cover at least one therapeutically alternative drug. Part D plan formularies
may also institute utilization management tools to ensure appropriate utilization as well
as to control costs.

For the drugs commonly used by dual eligibles, we found that the rate of formulary
inclusion is high with some variation. On average, Part D plan formularies include
96 percent of the commonly used drugs. Part D plan formularies’ inclusion of the
commonly used drugs ranges from 85 percent to 100 percent. Formulary inclusion rates
are similar for PDPs and MA-PDs. Further, formularies for Part D plans with premiums
below the regional benchmark include the commonly used drugs at a rate similar to that
of Part D plan formularies overall.

Inclusion rates for the 195 drugs commonly used by dual eligibles are largely unchanged
compared with those from OIG’s 2012 memorandum report. Part D plan formularies
include roughly the same percentage of these commonly used drugs in 2013 as they did
in 2012. Enrollment in plans that cover at least 90 percent of unique drugs stayed
consistent, with 99 percent of dual eligibles enrolled in such plans.

Although dual eligibles, like all Medicare beneficiaries, are largely enrolled in plans that
apply utilization management tools to a higher than average percentage of unique drugs,
this increase is largely a result of an increase in plans’ use of quantity limits and prior
authorization requirements. Plan formularies still vary widely in the rates at which they
apply utilization management tools to unique drugs.

Because some variation exists in Part D plan formularies’ inclusion of the commonly
used drugs and in their application of utilization management tools to these drugs, some
dual eligibles may need to use alternative methods to access the drugs they take. They
could appeal prescription drug coverage decisions, switch prescription drugs, or switch
Part D plans. These scenarios require additional effort by dual eligibles and may result in
administrative barriers to accessing certain prescription drugs.

As mandated by the ACA, OIG will continue to monitor the extent to which Part D plan
formularies cover drugs that dual eligibles commonly use. In addition, OIG will continue
to monitor Part D plan formularies’ application of utilization management tools to these
drugs.

This memorandum report is being issued directly in final form because it contains no
recommendations. We have included the list of the 200 drugs with the highest utilization
by dual eligibles. If you have comments or questions about this memorandum report,
please provide them within 60 days. Please refer to report number OEI-05-13-00090 in
all correspondence.



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 18 – Marilyn Tavenner


APPENDIX A

Section 3313 of the Patient Protection and Affordable Care Act of 2010

SEC. 3313. OFFICE OF THE INSPECTOR GENERAL STUDIES AND REPORTS.

(a) STUDY AND ANNUAL REPORT ON PART D FORMULARIES’ INCLUSION
OF DRUGS COMMONLY USED BY DUAL ELIGIBLES.—

(1) STUDY.—The Inspector General of the Department of Health and Human Services
shall conduct a study of the extent to which formularies used by prescription drug plans
and MA-PD plans under Part D include drugs commonly used by full benefit dual
eligible individuals (as defined in section 1935(c)(6) of the Social Security Act
(42 U.S.C. 1396u–5(c)(6)).

(2) ANNUAL REPORTS.—Not later than July 1 of each year (beginning with 2011), the
Inspector General shall submit to Congress a report on the study conducted under
paragraph (1), together with such recommendations as the Inspector General determines
appropriate.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 19 – Marilyn Tavenner


APPENDIX B

Commonly Used Drugs and Rates of Formulary Inclusion

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles
                                                                             Number of    Percentage of
                           Sample    Projected    95-Percent Confidence
 Generic Name                                                               Formularies    Formularies
                             Size*     Drugs*                  Interval*
                                                                              Including       Including
 Furosemide                  3,888   14,488,713   12,777,105 - 16,200,322          302              100%
 Simvastatin                 3,459   13,936,580   12,555,541 - 15,317,618          301              100%
 Hydrocodone
                             3,846   13,670,886   11,729,808 - 15,611,964          302              100%
 bit/acetaminophen
 Lisinopril                  3,483   13,610,671   12,242,398 - 14,978,945          302              100%
 Levothyroxine sodium        3,371   12,400,820   10,971,169 - 13,830,471          302              100%
 Omeprazole                  3,093   11,964,177   10,423,382 - 13,504,972          302              100%
 Potassium chloride          2,938   10,471,432    9,141,466 - 11,801,399          302              100%
 Amlodipine besylate         2,595   10,238,851    8,725,274 - 11,752,429          302              100%
 Metoprolol tartrate         2,393    9,382,516    8,286,197 - 10,478,834          302              100%
 Metformin HCl               2,216    8,789,649     7,682,215 - 9,897,084          302              100%
 Warfarin sodium             2,317    8,522,219     7,189,261 - 9,855,177          302              100%
 Atorvastatin calcium        2,039    7,644,118     6,588,676 - 8,699,560          301              100%
 Hydrochlorothiazide         1,717    7,268,389     6,083,158 - 8,453,620          302              100%
 Clopidogrel bisulfate       1,828    6,899,724     5,924,280 - 7,875,167          302              100%
 Atenolol                    1,545    6,801,703     5,648,924 - 7,954,482          302              100%
 Esomeprazole magnesium      1,435    5,973,325     4,771,051 - 7,175,599          180               60%
 Gabapentin                  1,630    5,843,387     4,861,226 - 6,825,548          302              100%
 Albuterol sulfate           1,439    5,219,654     4,432,757 - 6,006,551          302              100%
 Alendronate sodium          1,032    5,033,461     4,081,433 - 5,985,489          302              100%
 Citalopram hydrobromide     1,273    4,853,755     3,828,500 - 5,879,010          302              100%
 Zolpidem tartrate           1,378    4,757,715     3,812,965 - 5,702,464          302              100%
 Quetiapine fumarate         1,569    4,428,322     3,491,367 - 5,365,277          302              100%
 Metoprolol succinate        1,088    4,326,590     3,575,455 - 5,077,725          299               99%
 Ranitidine HCl              1,282    4,241,484     3,386,165 - 5,096,803          302              100%
 Valsartan                   1,041    4,193,143     3,342,936 - 5,043,350          221               73%
 Glipizide                    977     4,040,914     3,269,449 - 4,812,379          302              100%
 Fluticasone/salmeterol      1,067    4,035,986     3,198,380 - 4,873,592          289               96%
 Insulin glargine, human
                              952     4,017,723     3,061,997 - 4,973,449          295               98%
 recombinant analog
 Sertraline HCl              1,238    3,974,084     3,223,944 - 4,724,224          302              100%
 Montelukast sodium           977     3,810,128     2,954,872 - 4,665,384          270               89%
 Lovastatin                   797     3,806,610     2,995,644 - 4,617,575          291               96%
 Divalproex sodium           1,349    3,704,559     2,860,276 - 4,548,842          302              100%
 Oxycodone
                             1,016    3,702,234     2,918,165 - 4,486,303          302              100%
 HCl/acetaminophen
 Carvedilol                   907     3,636,584     2,960,891 - 4,312,277          302              100%
                                                                                     continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 20 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                                                   Number of    Percentage of
                                  Sample    Projected   95-Percent Confidence
 Generic Name                                                                     Formularies    Formularies
                                    Size*     Drugs*                 Interval*
                                                                                    Including       Including
 Donepezil HCl                      1,121   3,620,751     2,858,713 - 4,382,789          302              100%
 Diltiazem HCl                       841    3,536,775     2,618,064 - 4,455,485          302              100%
 Trazodone HCl                      1,002   3,503,016     2,777,254 - 4,228,777          302              100%
 Escitalopram oxalate               1,059   3,410,096     2,716,579 - 4,103,614          287               95%
 Isosorbide mononitrate              933    3,409,185     2,681,156 - 4,137,215          302              100%
 Pantoprazole sodium                 891    3,284,951     2,531,046 - 4,038,855          297               98%
 Risperidone                        1,139   3,199,726     2,641,085 - 3,758,367          302              100%
 Cyclobenzaprine HCl                 862    3,161,124     2,448,504 - 3,873,745          212               70%
 Tramadol HCl                        925    3,106,442     2,396,534 - 3,816,350          302              100%
 Rosuvastatin calcium                721    3,086,871     2,335,607 - 3,838,136          242               80%
 Alprazolam                          837    3,033,650     2,350,951 - 3,716,349          177               59%
 Lansoprazole                        824    3,002,134     2,342,667 - 3,661,601          262               87%
 Pioglitazone HCl                    795    2,986,021     2,270,495 - 3,701,547          301              100%
 Ibuprofen                           811    2,936,951     2,285,745 - 3,588,158          302              100%
 Enalapril maleate                   828    2,886,367     2,331,576 - 3,441,158          302              100%
 Prednisone                          838    2,882,757     2,383,115 - 3,382,399          302              100%
 Fluticasone propionate              776    2,859,018     2,324,821 - 3,393,216          302              100%
 Digoxin                             733    2,857,313     2,231,221 - 3,483,406          302              100%
 Clonidine HCl                       734    2,800,964     2,107,146 - 3,494,782          302              100%
 Propoxyphene
                                     814    2,694,310     2,078,897 - 3,309,723     Excluded          Excluded
 nap/acetaminophen
 Allopurinol                         710    2,568,090     1,982,006 - 3,154,174          302              100%
 Lisinopril/hydrochlorothiazide      657    2,558,335     1,908,086 - 3,208,583          301              100%
 Paroxetine HCl                      746    2,494,774     1,909,116 - 3,080,433          302              100%
 Tiotropium bromide                  573    2,456,029     1,935,499 - 2,976,559          302              100%
 Mirtazapine                         777    2,444,280     1,811,924 - 3,076,636          302              100%
 Naproxen                            689    2,410,096     1,864,556 - 2,955,635          302              100%
 Pravastatin sodium                  578    2,408,314     1,685,343 - 3,131,284          302              100%
 Tamsulosin HCl                      595    2,330,145     1,722,438 - 2,937,853          302              100%
 Valsartan/hydrochlorothiazide       550    2,298,873     1,654,679 - 2,943,067          224               74%
 Clonazepam                          733    2,262,762     1,722,387 - 2,803,137          302              100%
 Fluoxetine HCl                      652    2,259,917     1,776,469 - 2,743,365          302              100%
 Glimepiride                         522    2,242,751     1,588,355 - 2,897,146          302              100%
 Azithromycin                        654    2,184,924     1,908,989 - 2,460,859          302              100%
 Meloxicam                           516    2,155,762     1,647,492 - 2,664,031          300               99%
 Aripiprazole                        709    2,149,920     1,452,541 - 2,847,298          302              100%
 Spironolactone                      488    2,087,297     1,511,754 - 2,662,839          302              100%
 Pregabalin                          616    2,055,748     1,458,317 - 2,653,179          302              100%
                                                                                           continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 21 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                                                  Number of     Percentage of
                                 Sample    Projected   95-Percent Confidence
 Generic Name                                                                    Formularies     Formularies
                                   Size*     Drugs*                 Interval*
                                                                                   Including        Including

 Ezetimibe                          541    2,021,031     1,478,673 - 2,563,389          302              100%
 Nitroglycerin                      583    2,012,596     1,622,179 - 2,403,014          302              100%
 Sulfamethoxazole/
                                    619    2,011,424     1,619,682 - 2,403,167          302              100%
 trimethoprim
 Famotidine                         542    1,996,592     1,581,286 - 2,411,898          299                99%
 Morphine sulfate                   619    1,994,878     1,328,559 - 2,661,197          302              100%
 Duloxetine HCl                     546    1,992,643     1,293,371 - 2,691,915          302              100%
 Ipratropium/albuterol sulfate      470    1,970,144     1,460,358 - 2,479,930          298                99%
 Memantine HCl                      631    1,961,892     1,456,342 - 2,467,442          302              100%
 Glyburide                          495    1,922,621     1,384,185 - 2,461,058          300                99%
 Oxybutynin chloride                550    1,909,731     1,492,216 - 2,327,245          302              100%
 Fexofenadine HCl                   585    1,902,635     1,446,691 - 2,358,578      Excluded          Excluded
 Olanzapine                         693    1,896,640     1,319,011 - 2,474,270          302              100%
 Amitriptyline HCl                  564    1,885,388     1,372,287 - 2,398,489          302              100%
 Ciprofloxacin HCl                  568    1,865,328     1,639,946 - 2,090,710          302              100%
 Losartan potassium                 404    1,856,087     1,306,715 - 2,405,458          302              100%
 Fenofibrate nanocrystallized       488    1,824,334     1,406,247 - 2,242,421          186                62%
 Venlafaxine HCl                    643    1,823,318     1,272,552 - 2,374,085          302              100%
 Nifedipine                         426    1,820,394     1,280,987 - 2,359,801          300                99%
 Tolterodine tartrate               531    1,782,318     1,375,463 - 2,189,173          239                79%
 Triamterene/
                                    446    1,773,800     1,164,934 - 2,382,666          302              100%
 hydrochlorothiazide
 Levofloxacin                       500    1,766,041     1,363,889 - 2,168,194          301              100%
 Polyethylene glycol 3350           519    1,721,331     1,221,512 - 2,221,149          296                98%
 Buspirone HCl                      460    1,702,854     1,221,714 - 2,183,993          302              100%
 Promethazine HCl                   550    1,686,330     1,284,972 - 2,087,688          268                89%
 Sitagliptin phosphate              360    1,667,857     1,148,378 - 2,187,336          295                98%
 Bupropion HCl                      472    1,666,187     1,186,998 - 2,145,377          302              100%
 Human insulin neutral
 protamine hagedorn/regular         463    1,653,338     1,196,825 - 2,109,851          302              100%
 human insulin
 Celecoxib                          435    1,621,197     1,186,593 - 2,055,800          282                93%
 Metoclopramide HCl                 443    1,617,265     1,174,504 - 2,060,026          302              100%
 Phenytoin sodium extended          547    1,613,514     1,163,676 - 2,063,352          302              100%
 Carbamazepine                      576    1,580,353     1,013,148 - 2,147,559          302              100%
 Ezetimibe/simvastatin              341    1,541,184      977,289 - 2,105,078           186                62%
 Risedronate sodium                 396    1,540,508     1,101,037 - 1,979,980          228                75%
 Clozapine                          400    1,509,207      714,436 - 2,303,978           302              100%
 Acetaminophen with codeine         359    1,484,631     1,013,126 - 1,956,136          302              100%
 Meclizine HCl                      415    1,463,788     1,091,434 - 1,836,142          297                98%
                                                                                          continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 22 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                                            Number of     Percentage of
                           Sample    Projected   95-Percent Confidence
 Generic Name                                                              Formularies     Formularies
                             Size*     Drugs*                 Interval*
                                                                             Including        Including

 Mometasone furoate           391    1,458,895     1,068,476 - 1,849,315          300                99%
 Insulin regular, human       385    1,457,603     1,030,919 - 1,884,288          302              100%
 Glyburide/metformin HCl      306    1,455,464      938,542 - 1,972,386           298                99%
 Carisoprodol                 502    1,442,655      995,945 - 1,889,365           156                52%
 Oxycodone HCl                498    1,431,700      989,649 - 1,873,751           301              100%
 Baclofen                     468    1,406,908      987,451 - 1,826,366           302              100%
 Fentanyl                     421    1,401,086      952,557 - 1,849,616           302              100%
 Cephalexin                   440    1,396,294     1,165,811 - 1,626,778          302              100%
 Insulin aspart               368    1,382,200      927,459 - 1,836,940           285                94%
 Benztropine mesylate         524    1,378,431      955,176 - 1,801,686           302              100%
 Diazepam                     345    1,350,444      891,523 - 1,809,365           302              100%
 Doxazosin mesylate           283    1,315,296      734,304 - 1,896,287           302              100%
 Hydroxyzine HCl              327    1,309,855      797,158 - 1,822,551           257                85%
 Ziprasidone HCl              473    1,283,163      838,260 - 1,728,066           302              100%
 Benazepril HCl               307    1,275,932      720,547 - 1,831,316           301              100%
 Triamcinolone acetonide      361    1,260,803     1,039,762 - 1,481,843          302              100%
 Lidocaine                    347    1,258,091      856,044 - 1,660,138           302              100%
 Verapamil HCl                311    1,238,088      863,750 - 1,612,426           302              100%
 Latanoprost                  302    1,227,112      819,015 - 1,635,210           302              100%
 Amoxicillin                  405    1,226,521     1,044,796 - 1,408,246          302              100%
 Carbidopa/levodopa           361    1,215,696      832,796 - 1,598,596           302              100%
 Hydralazine HCl              333    1,201,268      836,146 - 1,566,389           302              100%
 Amlodipine
                              298    1,201,014      803,666 - 1,598,361           293                97%
 besylate/benazepril
 Torsemide                    230    1,173,205      492,351 - 1,854,059           299                99%
 Nystatin                     326    1,170,065      857,188 - 1,482,941           302              100%
 Lamotrigine                  391    1,159,822      771,629 - 1,548,014           302              100%
 Ramipril                     289    1,142,525      665,969 - 1,619,081           296                98%
 Gemfibrozil                  313    1,132,380      777,795 - 1,486,966           302              100%
 Ropinirole HCl               280    1,125,551      686,763 - 1,564,339           302              100%
 Terazosin HCl                255    1,116,887      681,820 - 1,551,954           302              100%
 Methocarbamol                307    1,110,468      663,592 - 1,557,343           210                70%
 Isosorbide dinitrate         261    1,110,025      469,055 - 1,750,994           302              100%
 Lorazepam                    374    1,105,423      829,210 - 1,381,635           234                77%
 Estrogens, conjugated        261    1,083,989      629,284 - 1,538,695           300                99%
 Folic acid                   268    1,074,524      785,018 - 1,364,029       Excluded          Excluded
 Lactulose                    335    1,073,756      696,324 - 1,451,188           302              100%
 Lithium carbonate            319    1,056,530      544,694 - 1,568,365           302              100%
 Levetiracetam                372    1,052,523      722,361 - 1,382,685           302              100%
                                                                                    continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 23 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                                               Number of     Percentage of
                               Sample    Projected   95-Percent Confidence
 Generic Name                                                                 Formularies     Formularies
                                 Size*     Drugs*                 Interval*
                                                                                Including        Including

 Omega-3 acid ethyl esters        270    1,034,241      593,395 - 1,475,087          299                99%
 Doxycycline hyclate              337    1,033,606      751,965 - 1,315,246          302              100%
 Methadone HCl                    271    1,008,892      466,535 - 1,551,248          301              100%
 Topiramate                       397    1,000,887      583,646 - 1,418,128          302              100%
 Neutral protamine hagedorn,
                                  217     988,784       639,247 - 1,338,320          302              100%
 human insulin isophane
 Ipratropium bromide              272     980,422       653,215 - 1,307,629          302              100%
 Brimonidine tartrate             245     954,347       657,682 - 1,251,013          302              100%
 Propranolol HCl                  285     948,052       571,036 - 1,325,068          302              100%
 Temazepam                        250     946,044       610,453 - 1,281,635          187                62%
 Dicyclomine HCl                  276     943,314       607,856 - 1,278,771          253                84%
 Finasteride                      249     910,448       615,843 - 1,205,053          302              100%
 Timolol maleate                  245     861,731       565,750 - 1,157,712          302              100%
 Fluconazole                      242     860,524       466,493 - 1,254,555          302              100%
 Albuterol                        241     853,696       489,990 - 1,217,403      Excluded          Excluded
 Pramipexole dihydrochloride      121    Excluded                 Excluded       Excluded          Excluded
 Labetalol HCl                    183     841,200       174,911 - 1,507,488          302              100%
 Olmesartan medoxomil             181     829,968       349,332 - 1,310,605          220                73%
 Insulin lispro                   204     819,910       516,648 - 1,123,172          241                80%
 Nabumetone                       206     814,711       481,191 - 1,148,232          298                99%
 Quinapril HCl                    150     813,879       351,190 - 1,276,569          298                99%
 Raloxifene HCl                   202     812,930       478,798 - 1,147,062          302              100%
 Tizanidine HCl                   280     812,885       545,990 - 1,079,780          301              100%
 Diclofenac sodium                224     809,011       579,543 - 1,038,480          302              100%
 Amoxicillin/potassium
                                  258     807,971         635,629 - 980,312          302              100%
 clavulanate
 Methylprednisolone               214     786,567       513,393 - 1,059,741          302              100%
 Oxcarbazepine                    213     779,355       266,529 - 1,292,181          302              100%
 Nitrofurantoin monohydrate/
                                  226     772,565         585,184 - 959,945          292                97%
 macrocrystals
 Eszopiclone                      229     760,246       400,596 - 1,119,897          177                59%
 Solifenacin succinate            210     751,939       442,997 - 1,060,881          249                82%
 Levalbuterol tartrate            176     732,957       357,407 - 1,108,506          154                51%
 Metolazone                       203     726,108       417,302 - 1,034,915          300                99%
 Cilostazol                       148     719,471       324,291 - 1,114,651          302              100%
 Rosiglitazone maleate            206     715,668       407,155 - 1,024,182          170                56%
 Azelastine HCl                   129     699,431       282,352 - 1,116,510          302              100%
 Clotrimazole/
                                  187     692,186         481,069 - 903,302          267                88%
 betamethasone dip
 Dutasteride                      127     684,615         404,255 - 964,975          279                92%
                                                                                       continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 24 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                                                                     Number of          Percentage of
                                       Sample        Projected       95-Percent Confidence
 Generic Name                                                                                       Formularies          Formularies
                                         Size*         Drugs*                     Interval*
                                                                                                      Including             Including

 Sucralfate                                 213         681,391             408,441 - 954,342                  302               100%
 Diphenoxylate HCl/atropine                 169         668,573           284,464 - 1,052,682                  200               66%
 Megestrol acetate                          199         639,426             450,033 - 828,820                  302               100%
 Clobetasol propionate                      146         636,503             322,115 - 950,891                  302               100%
 Metronidazole                              185         625,506             460,269 - 790,743                  302               100%
 Amiodarone HCl                             146         620,999             327,394 - 914,604                  302               100%
 Colchicine                                 200         607,224             314,858 - 899,591                  302               100%
 Sotalol HCl                                152         596,852             245,850 - 947,853                  302               100%
 Aspirin/dipyridamole                       165         594,285             347,901 - 840,668                  302               100%
 Losartan/hydrochlorothiazide               166         593,970             243,138 - 944,802                  301               100%
 Dorzolamide HCl/timolol
                                            151         592,202             305,698 - 878,706                  302               100%
 maleate
 Ketoconazole                               162         579,942             365,474 - 794,411                  302               100%
 Nitrofurantoin macrocrystal                177         577,871             349,562 - 806,181                  294               97%
 Hydroxychloroquine sulfate                 155         577,507             251,571 - 903,442                  302               100%
 Calcium acetate                            180         573,946             313,698 - 834,193                  298               99%
 Repaglinide                                142         569,993             308,053 - 831,933                  267               88%
 Moxifloxacin HCl                           137         568,317             364,110 - 772,525                  287               95%
 Hydrocortisone                             154         554,472             305,094 - 803,851                  302               100%
 Olmesartan/
                                            113         552,362             259,710 - 845,014                  220               73%
 hydrochlorothiazide
Source: Office of Inspector General analysis of drugs commonly used by dual eligibles, 2013.
*Sample is from the 2009 Medicare Current Beneficiary Survey. Projections and confidence intervals are derived from its survey
methodology.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 25 – Marilyn Tavenner


APPENDIX C

Four Drugs Commonly Used by Dual Eligibles and Not Covered Under Part D

                Generic Name                                      Reason Excluded Under Part D
                                                                        No longer prescribed without
                Albuterol
                                                                                             sulfate
                Fexofenadine HCl                                                Nonprescription drug
                Folic acid*                                               Vitamin or mineral product
                                                                   No longer available in the United
                Propoxyphene nap/acetaminophen*
                                                                                              States
               Source: Office of Inspector General analysis of formulary inclusion of drugs commonly used
               by dual eligibles, 2013.
               * These drugs were also on the 2012 report’s list of drugs commonly used by dual eligibles
               and not covered under Part D.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 26 – Marilyn Tavenner


APPENDIX D

Formulary Inclusion of Stand-Alone Prescription Drug Plans* and Medicare
Advantage Prescription Drug Plans** by Region

Table D-1: PDP Formulary Inclusion
 PDP                                                  Number of               Average Formulary                               Maximum
              State(s)                                                                                         Minimum Rate
 Region                                                  PDPs                    Inclusions Rate                                  Rate
 1            Maine, New Hampshire                              28                               95%                   87%        99%
              Connecticut, Massachusetts,
 2                                                              30                               95%                   87%        99%
              Rhode Island, Vermont
 3            New York                                          28                               95%                   87%        99%
 4            New Jersey                                        29                               94%                   87%        99%
              Delaware, the District of
 5                                                              29                               95%                   87%        99%
              Columbia, Maryland
 6            Pennsylvania, West Virginia                       38                               95%                   87%       100%
 7            Virginia                                          31                               94%                   87%        99%
 8            North Carolina                                    30                               95%                   87%        99%
 9            South Carolina                                    31                               94%                   87%        99%
 10           Georgia                                           30                               95%                   87%        99%
 11           Florida                                           34                               94%                   87%        99%
 12           Alabama, Tennessee                                33                               95%                   87%        99%
 13           Michigan                                          33                               95%                   87%        99%
 14           Ohio                                              33                               95%                   87%        99%
 15           Indiana, Kentucky                                 31                               95%                   87%        99%
 16           Wisconsin                                         30                               95%                   87%        99%
 17           Illinois                                          32                               95%                   87%        99%
 18           Missouri                                          31                               94%                   87%        99%
 19           Arkansas                                          30                               94%                   87%        99%
 20           Mississippi                                       29                               94%                   87%        99%
 21           Louisiana                                         30                               94%                   87%        99%
 22           Texas                                             32                               95%                   87%        99%
 23           Oklahoma                                          30                               94%                   87%        99%
 24           Kansas                                            30                               94%                   87%        99%
              Iowa, Minnesota, Montana,
 25           Nebraska, North Dakota, South                     32                               95%                   87%        99%
              Dakota, Wyoming
 26           New Mexico                                        30                               95%                   87%        99%
 27           Colorado                                          29                               95%                   87%        99%
 28           Arizona                                           29                               95%                   87%        99%
 29           Nevada                                            29                               95%                   87%        99%
 30           Oregon, Washington                                30                               94%                   87%        99%
 31           Idaho, Utah                                       32                               94%                   87%        99%
 32           California                                        32                               94%                   87%        99%
 33           Hawaii                                            23                               94%                   87%        99%
 34           Alaska                                            23                               95%                   87%        99%
Source: Office of Inspector General analysis of formulary inclusion of drugs commonly used by dual eligibles, 2013.

*PDP.
**MA-PD.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
Page 27 – Marilyn Tavenner

Table D-2: MA-PD Formulary Inclusion by Region
 MA-PD                                                            Number of        Average Formulary
                State(s)                                                                                      Minimum Rate   Maximum Rate
 Region***                                                          MA-PDs             Inclusion Rate
 1              Maine, New Hampshire                                        36                       96%              87%            99%
                Connecticut, Massachusetts, Rhode
 2                                                                          72                       96%              87%            99%
                Island, Vermont
 3              New York                                                  189                        96%              90%            99%
 4              New Jersey                                                  36                       95%              91%            99%
                Delaware, the District of Columbia,
 5                                                                          28                       96%              93%           100%
                Maryland
 6              Pennsylvania, West Virginia                               157                        97%              90%           100%
 7              North Carolina, Virginia                                  140                        97%              87%           100%
 8              Georgia, South Carolina                                   125                        96%              87%           100%
 9              Florida                                                   302                        97%              85%           100%
 10             Alabama, Tennessee                                          77                       96%              93%            99%
 11             Michigan                                                    61                       97%              93%           100%
 12             Ohio                                                        80                       96%              87%           100%
 13             Indiana, Kentucky                                           88                       96%              87%           100%
 14             Illinois, Wisconsin                                       142                        97%              87%           100%
 15             Arkansas, Missouri                                        123                        96%              87%            99%
 16             Louisiana, Mississippi                                      80                       96%              93%            99%
 17             Texas                                                     149                        96%              90%            99%
 18             Kansas, Oklahoma                                            65                       97%              90%            99%
                Iowa, Minnesota, Montana, Nebraska,
 19             North Dakota, South Dakota,                               122                        97%              88%           100%
                Wyoming
 20             Colorado, New Mexico                                        74                       97%              87%           100%
 21             Arizona                                                     75                       95%              89%            99%
 22             Nevada                                                      38                       95%              87%           100%
 23             Idaho, Oregon, Utah, Washington                           160                        96%              90%           100%
 24             California                                                266                        96%              87%           100%
 25             Hawaii                                                      20                       97%              94%           100%
Source: Office of Inspector General analysis of formulary inclusion of drugs commonly used by dual eligibles, 2013.
***Region 26, which covers Alaska, has no MA-PDs available for 2013.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013 (OEI-05-13-00090)
